                                                      NEWS RELEASE
                                                            KAREN L. LOEFFLER
                                                         UNITED STATES ATTORNEY
                                                           DISTRICT OF ALASKA

 Federal Building & U.S. Courthouse $ 222 W. 7th Avenue $ Room 253 $ Anchorage, AK 99513-7567 $ (907) 271-5071

FOR IMMEDIATE RELEASE                                                 Contact: Yvonne Lamoureux
Friday, April 18, 2014                                                         Assistant U.S. Attorney
                                                                               907-271-5071

        ANCHORAGE MAN INDICTED BY FEDERAL GRAND JURY FOR WIRE FRAUD,
    THEFT OF GOVERNMENT FUNDS, FEDERAL EMPLOYEES’ COMPENSATION ACT
                   FRAUD, AND SOCIAL SECURITY FRAUD

       Anchorage, Alaska - U.S. Attorney Karen L. Loeffler announced today that Amancio Zamora
Agcaoili, Jr. was indicted by a federal grand jury in Anchorage for wire fraud, theft of government funds,
Federal Employees’ Compensation Act fraud, and social security fraud.

        Agcaoili, 56, is the sole defendant named in the 18-count indictment, together with two forfeiture
allegations.

        According to the indictment, between at least on or about February 12, 2009 and continuing
thereafter until the present, Agcaoili, a United States Postal Service employee, devised and participated in
a scheme to defraud the Department of Labor Office of Workers’ Compensation Program and the Social
Security Administration Disability Insurance Benefits program of funds totaling at least $334,000.
Agcaoili is alleged to have been receiving both federal workers’ compensation and federal social security
disability payments by engaging in a scheme to defraud the federal government about the nature and
extent of his injury and about the other work he was performing and income he was receiving.

        The indictment alleges that despite Agcaoili’s disability claims, Agcaoili went dipnetting and
fishing on multiple occasions every summer between 2009 and 2013. In addition, the indictment alleges
that Agcaoili lied to the federal government on his annual forms when Agcaoili indicated that he did not
perform any work between at least February 2009 and continuing until the present, when he was working
and receiving income for performing services such as preparing immigration paperwork and tax returns.
In addition, the indictment alleges that Agcaoili concealed and failed to disclose to the Social Security
Administration that he was receiving workers’ compensation payments in order to continue receiving
social security disability payments to which he was not entitled.

        Assistant U.S. Attorney Yvonne Lamoureux, who presented the case to the grand jury, indicated
that the law provides for a maximum total sentence of up to 20 years in prison, a fine of up to $25,000, or
both. Under the Federal Sentencing Guidelines, the actual sentence imposed will be based upon the
seriousness of the offenses and the prior criminal history, if any, of the defendant.

       “Each time someone intentionally defrauds the United States in order to receive federal benefits,
such as workers’ compensation and disability payments, it undermines the integrity of those federal
programs, and harms all law abiding citizens. We are committed to investigating fraud involving federal
programs, and to prosecuting theft of government funds in all its forms,” said Kevin Feldis, First Assistant
United States Attorney and Criminal Division Chief for the District of Alaska.
        The United States Postal Service Office of the Inspector General and the Social Security
Administration Office of the Inspector General conducted the investigation leading to the indictment in
this case.

         An indictment is only a charge and is not evidence of guilt. A defendant is presumed innocent and
is entitled to a fair trial at which the government must prove guilt beyond a reasonable doubt.

                                                   ###

usao/ak/14-027

Prepared by: Ashley Nighswander, 907-271-5071, USAAK.PressRelease@usdoj.gov
